-5430

No.__

IN THE
SUPREME COURT OF THE UNIT!

ms

“In re PERCYALLEN STOCKST-PR
Vs.

ETITEONER

AUli o h 2021

DAREN L. SHIPPY - RESPONDENT(S)

i

ON PETITION FOR WRIT OF CERTIORARI

I
SUPREME COURT OF FLORIDA
NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE
PETITION FOR WRIT OF CERTIORARI
PERCY ALLEN STOCKS

500 East Adams Street

Jacksonville, Florida, 32202

QUESTION(S) PRESENTED
1.

Does a Florida defendant have the right to withdraw plea before trial?

i

i

LIST OF PARTIES

1. Daren L. Shippy
Assistant Attorney General
PL-01, The Capitol
Tallahassee, Florida 32399-1050

i

TABLE OF CONTENTS

PAGE

OPINIONS BELOW

1-2

JURISDICTION

2-3

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED......3-# fo

m ia'iO

STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT

t!°

CONCLUSION

wtO-13
9X

INDEX TO APPENDICES
APPENDIX A
APPENDIX

ITEMS

EXHIBITS

A-l

DISTRICT COURT OF

EXHIBITS 1

ts.

APPEAL, FIRST
DISTRICT ORDER
DISMISSED FOR LACK
OF JURISDICTION
A-2

SUPREME COURT OF

EXHIBIT 2

FLORIDA ORDER
DISMISSING
A-3

U.S. ARMY ACTIVE

EXHIBIT 3

i

DUTY MENTAL
HEALTH RECORD
A-4

U.S. ARMY ACTIVE

EXHIBIT 4

DUTY MENTAL
HEALTH RECORD
A-5

DEPARTMENT OF

EXHIBITS

VETERAN AFFAIRS
MENTAL HEALTH
RECORDS
A-6

DEPARTMENT OF

EXHIBIT 6

VETERAN AFFAIRS
MENTAL HEALTH
RECORDS
A-7

DEPARTMENT OF

EXHIBIT 7

VETERAN AFFAIRS
VETERAN’S
DISABILITY RATING
A-8

VA MENTAL HEALTH

EXHIBIT 8

COUNSELOR EMAILS
A-9

VA MENTAL HEALTH

EXHIBIT 9

COUNSELOR EMAILS
A-10

VA MENTAL HEALTH

EXHIBIT 10

I

COUNSELOR EMAILS
A-ll

VA MENTAL HEALTH

EXHIBIT 11

COUNSELOR EMAILS
A-12

VA MENTAL HEALTH

EXHIBIT 12

COUNSELOR EMAILS
A-13

JSO POLICE

EXHIBIT 13

BRUTALITY LAWSUIT
A-14

MACHETE UNDER

EXHIBIT 14

MATTRESS FOR

i
I

PROTECTION
A-15

380 CALIBER

EXHIBIT 15

AMMUNITION AND
GUN CLEANING KIT
A-16

DR. STEPHEN I.

EXHIBIT 16

BLOOMFIELD
REPORT
A-17

DR. LARRY NEIDIGH

EXHIBIT 17

REPORT
A-18

MOTION FOR

dm MBIT

18

APPOINTMENT OF

I

EXPERT
A-19

JUSTICE

EXHIBIT 19

ADMINISTRATIVE
COMMISSION MOTION
TO INCUR COST FOR
APPOINTMENT OF
EXPERT
A-20

FLORIDA BAR

EXHIBIT 20

COMPLAINT AGAINST
BERNARDO ENRIQUE
DELARIONDA
A-21

FLORIDA BAR

EXHIBIT 21

COMPLAINT AGAINST
TONYA PATTERSON
A-22

SUPPLEMENTARY

EXHIBIT 22

REPORT FROM
AUGUST 3, 2016
A-23

FRADULENT

EXHIBIT 23

CHARGING
INSTRUMENT
A-24

ACTIONS NEWS JAX

EXHIBIT 24

LOCAL NEWS
A-25

FIRST COAST NEWS
LOCAL NEWS

EXHIBIT 25

FLORIDA TIMES

A-26

EXHIBIT 26

UNION LOCAL
NEWSPAPER
CIVIL LAWSUIT CASE

A-27

EXHIBIT 27

NUMBER
CIVIL LAWSUIT CASE

A-28

EXHIBIT 28

NUMBER
JOHN ONEAL ARREST

A-29

EXHIBIT 29

RECORD
STATE’S ELEVENTH

A-30

EXHIBIT 30

SUPPLEMENTARY
DISCOVERY EXHIBIT
SUPPLEMENTARY

A-31

EXHIBIT 31

REPORT FROM
11/16/2016

CASES

PAGE NUMBER

1. Alexander v. State:
App.5 Dist., 380 So. 2d. 1188 (1980)

3,8

2. Folev v. State.
969 So. 2d 283 (Fla. 2007)
3. Grate v. State.

3,6,7

750 So. 2d 265 (Fla. 1999)

4,6,7

4. King v. State.
App. 1 Dist., 387 So. 2d 463 (1980).

4,9

5. Livingston v. State.
App. 2 Dist., 383 So.2d 947 (1980)

4,5,8,9

6. Manning v. State.
378 So. 2d 274 (1979)

5,10

7. Murphv v. State.
App. 3 Dist., 252 So. 2d 385 (1971)

5,10

8. Persaud v. State.
838 So. 2d 529 (Fla. 2003)

5,6,7

9. Stallworth v. Moore.
827 So. 2d 974 (Fla. 2002)

OTHER

6,7

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment
below.

OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals at Appendix

to

The petitioner and is
[ ] reported at__ i

;or,

[ ] has been designated for publication but is not yet reported; or,
[ X ] is unpublished.
The opinion of the United States District court of appeals at Appendix
to the petitioner and is
.;or,

[ ] reported at.

[ ] has been designated for publication but is not yet reported; or,
[ X ] is unpublished
[ ] For cases from state courts
The opinion of the highest state court to review the merits appears at
Appendix A to the petition and is
[ ] reported at

"

;or,

[ ] has been designated for publication but is not yet reported; or,

[ X ] is unpublished.
court

The opinion of the
to the petition and is

Appears at Appendix
[

;or,

] reported at

[ ] has been designated for publication but is not yet reported; or,
[ X ] is unpublished
JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was N/A.
[ ] No petition for hearing was timely filed in my case.
[ ] A timely petition for rehearing was thereafter denied on the following date:
, and a copy of the order denying rehearing appears at
Appendix N/A.
[ ] An extension of time to file the petition for writ of certiorari was granted to and
including

(date) on

•5

(date) in Application No.

A

The jurisdiction of this Court is invoked under 28 U.S.C § 1254 (1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was August 03,
2021. A copy of that decision appears at Appendix A.
[ ] A timely petitioner for rehearing was thereafter denied on the following
date: July 2021, a copy of the order denying rehearing appears at Appendix A.
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) on

to and including

(date) in Application No.

A
The Jurisdiction df this court is invoked under 28 U.S.C. § 1257 (a).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
FLORIDA STATUES
1. Alexander v. State.
App.5 Dist., 380 So. 2d. 1188 (1980).
“A person adjudged to be presumed to continue insane until it is shown that
his sanity has returned.”
2. Folev v. State.
969 So. 2d 283 (Fla. 2007)

“This Court’s jurisdiction to issue extraordinary writs may not be used to
seek review of an unelaborated decision from a district court of appeal that is
issued without opinion or explanation or that merely cities to an authority
that is not as a case pending review in, or reversed or quashed by, this
Court.”
3. Grate v. State.
750 So. 2d 265 (Fig. 1999)
“This Court’s jurisdiction to issue extraordinary writs may not be used to
seek review of an unelaborated decision from a district court of appeal that is
issued without opinion or explanation or that merely cities to an authority
that is not as a case pending review in, or reversed or quashed by, this
Court.”
4. King v. State.
App. 1 Dist., 387 So. 2d 463 (1980)
“ If a person is adjudicated to be mentally incompetent, it is preesumed he
continues to be so unitl he has shown his sanity has returned, and the
presumption shifts of providing competency to state.”
5. Livingston v. State.
App. 2 Dist., 383 So.2d 947 (1980).
“Defendant was entitled to evidentiary hearing on his request to vacate his
conviction for First degree Murder, where he alleged that prior to the time of

his conviction he had been declared insane abd there was no showing that his
sanity had returned.”
“ One who has been adjudge insane is presume to continue so until it is
shown that his sanity has returned and an accused cannot be tried or
sentenced while insane.”
6. Manning v. State.
378 So. 2d 274 (1979).
“ Trial Judge is bound to grant motion for change of venue when evidence
presented reflects that community is so pervasively exposed to circumstances
of incident that prejudice, bias and preconceived opinions are result.”
7. Murohv v. State.
App. 3 Dist., 252 So. 2d 385 (1971).
“ If there is likelihood of bias by jury, question of accused’s constitutional
right to fair trial is involved and federally established standards must be
applied in determining whether denial of accused’s motion for change of
venue constituted an abused of discretion.”
8. Persaud v. State.
838 So. 2d 529 (Fla. 2003)
“This Court’s jurisdiction to issue extraordinary writs may not be used to
seek review of an unelaborated decision from a district court of appeal that is
issued without opinion or explanation or that merely cities to an authority

that is not as a caide pending review in, or reversed or quashed by, this
Court”

9. Stallworth v. Moore.
827 So. 2d 974 (Fla. 2002)
“This Court’s jurisdiction to issue extraordinary writs may not be used to
seek review of an unelaborated decision from a district court of appeal that is
issued without opinion or explanation or that merely cities to an authority
that is not as a case pending review in, or reversed or quashed by, this
Court.”

FLORIDA CASE LAWS
STATEMENT OF THE CASE APPENDIX A
1.

The petitioner went on appeal for an Order Denying Withdrawal of
Plea. See Exhibit 1. Then, the petitioner was denied jurisdiction by the
District Court of Appeal, First District. See Exhibit 1. Later, the petitioner
appeal to the Supreme Court of Florida and his case was dismissed stating, “
This Court’s jurisdiction to issue extraordinary writs may not be used to seek
review of an unelaborated decision from a district court of appeal that is
issued without opinion or explanation or that merely cities to an authority

that is not as a case pending review in, or reversed or quashed by, this
Court. See Foley v. State, 969 So. 2d 283 (Fla. 2007); Persaud v. State, 838
So. 2d 529 (Fla. 2003); Stallworth v. Moore, 827 So. 2d 974 (Fla. 2002); Grate
v. State, 750 So. 2d 265 (Fla. 1999). See Exhibit 2. The petitioner is being
denied; his U.S. Constitutional Right to withdraw at any time before trial.
The petitoner wanted to change; his plea to Not Guilty by Reason of Insanity.
The petitoner’s first experience with the U.S. Army’s Mental Health was in
2006. The petitori&r’s command sent him to mh after; they returned from
Iraq; due to having confrontations with everybody and disregarding
authority. “ That ordered him in Anger Management Classes, saw
psychiatrust.” “ was rx’d something does not know what it was, did not take
neds and would throw them away.” See Exhibit 3. In August 09, 2021, the
petitoner saw a psychology and was diagnosed with “ Adjustment Disorder.”
Also, the petitioner suffers from “ Adjustment Disorder with Disturbance of
Emotions and Conduct. See Exhibit 4. The petitioner continued his Mental
Health treatment %ith the Department of Veteran Affairs. See Exhibit 5. The
petitioner felt like “ Everyone is setting me up for failure.” See Exhibit 5. On
December 17, 2009, the petitioner was diagnosed with Anxiety and PTSD
related to Iraq Deployment from 2005 to 2006. See Exhibit 6. The petitioner
is 40% service-connected from the U.S. Army from his deployment to Iraq
from 2005-2006. See Exhibit 7. The petitioner was in college and had a
Mental Health Specialist as his VA College counselor. See Exhibit 8,9,10,11,

and 12. The petitoner was a victim of JSO Police Brutality in 2014 and was
awarded $5,000.00. See Exhibit 13. The petitioner slept with a machete
'l

under his mattress for protection. See Exhibit 14. Once the petitoner was
detained in Georgia, the petitioner had a box of 380 ammunition on the bed
with 21 live rounds and a gun cleaning kit. See Exhibit 15. The petitioner
was evaluated by Dr. Stephen I. Bloomfield stated, “ The issue having to do
with a Defense of Not Guilty by Reason of Insanity will need continued work
and evaluation. See Exhibit 16. The petitoner sent evidence to Dr. Larry
Neidigh and he stated, “ I hace received correspondence from Percy Allen
Stucks Jr. Requesting that I perform an evaluation to assist in a
determination of Not Guilty by Reason of Insanity. I am writing to conform
that I am willing and available to perform this service if funds are available.”
See Exhibit 17. ”A person adjudged to be presumed to continue insane until it
is shown that his sanity has returned.” See Alexander v. State, App.5 Dist.,
380 So. 2d. 1188 (1980). * One who has been adjudge insane is presume to
continue so until it is shown that his sanity has returned and an accused
cannot be tried or sentenced while insane.” See Livingston v. State, App. 2
Dist., 383 So.2d 947 (1980). “Defendant was entitled to evidentiary hearing
on his request to vacate his conviction for First degree Murder, where he
alleged that prior to the time of his conviction he had been declared insane
abd there was no showing that his sanity had returned.” See Livingston v.
State, App. 2 Dist., 383 So.2d 947 (1980). “ If a person is adjudicated to be

mentally incompetent, it is preesumed he continues to be so unitl he has
shown his sanity has returned, and the presumption shifts of providing
competency to state.” See King v. State, App. 1 Dist., 387 So. 2d 463 (1980).
On February 4th 2020, the Hon. Judge Lester Bass granted a “Motion For
Appointment OF Expert.” See Exhibit 18. The petitioner was granted funding
for the NGI testing from the Justice Administrative Commission on
September 9 2020. See Exhibit 19. The petitioner would also like to withdraw
to plea; because there was a never a sworn affidavit; from a alleged material
witness; which is a violation of my right to face my accuser and witness. See
U.S. Constitutional 6th Amendment. The petitoner has written up two state
attorney up; because of their fraudlent claims. See Exhibit 20 and 21. Florida
law clearly establishes two (2) requirements when filing an information, that
(1) “ an information charging the commision of a felony shall be signed by the
State Attorney or a designated Assistant State Attorney, under oath stating
his or her good faith in instituting the prosecution, * and (2), “certifying that
he or she has received testimony under oath from the material witness or
witnesses. See Fla. R. Crim. P. 3140(g). In supplementary repor from August
8, 2016, it stated, John Oneal stated, he is a crack cocaine addicted and
generally buys his drugs from a black man he knows as “Smoke”.The witness
stated that he was at the above house on 07-11-2016, and overheard “Smoke”
speaking with another unknown Black male. The witness stated that
“Smoke” said that a female was saying that he sold her bad drugs and she
was going to report “Smoke” to the Police. The witness stated “Smoke” then

stated that he was going to get the female “Fucked up”. See Exhibit 23. The
petitoner has the charging information; stating a sworn affidavit was
obtained by; it was never obtained. See Exhibit 24.
REASONS FOR GRANTING THE PETITION
The petitioner is entitled to have his petitions heard; because Mental Health
experts have received mental health documentations to administer the Not Guilty
By Reason Of Insanity. See Exhibit 14 and 15. My case has been the local news and
on the internet. I will not have a fair trial in Florida. See Exhibit 25, 26, and 27.1
currently have a couple of civil lawsuits in Florida. See Exhibit 28 and 29. “ Trial
Judge is bound to grant motion for change of venue when evidence presented
reflects that community is so pervasively exposed to circumstances of incident that
prejudice, bias and preconceived opinions are result.” See Manning v. State, 378 So.
2d 274 (1979). “ If there is likelihood of bias by jury, question of accused’s
constitutional right to fair trial is involved and federally established standards
must be applied in determining whether denial of accused’s motion for change of
venue constituted an abused of discretion.” Murphy v. State, App. 3 Dist., 252 So.
2d 385 (1971).
CONCLUSION

The petition for status on stay should be granted.

I

Respectfully Submitted and served

Date: August 3, 2021

No.

IN THE
SUPREME COURT OF THE UNITED STATES

PERCY AT/TEN STOCKS - PRO SE PETITIONER

VS.

I

